<html>
<title> - CALLING FOR THE REPATRIATION OF POW/MIAs AND ABDUCTEES FROM THE KOREAN WAR</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
CALLING FOR THE REPATRIATION OF POW/MIAs AND ABDUCTEES FROM THE KOREAN 
                                  WAR

=======================================================================


                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                              H. Res. 376

                               __________

                           NOVEMBER 30, 2011

                               __________

                           Serial No. 112-82

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
71-399                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcdbccd3fcdfc9cfc8d4d9d0cc92dfd3d192">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                 DONALD A. MANZULLO, Illinois, Chairman
RON PAUL, Texas                      ENI F.H. FALEOMAVAEGA, American 
BILL JOHNSON, Ohio                       Samoa
DAN BURTON, Indiana                  FREDERICA WILSON, Florida
EDWARD R. ROYCE, California          GARY L. ACKERMAN, New York
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MIKE KELLY, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          DENNIS CARDOZA, California


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 376, Calling for the repatriation of POW/MIAs and 
  abductees from the Korean War..................................     2
  Amendment in the nature of a substitute to H. Res. 376 offered 
    by the Honorable Donald A. Manzullo, a Representative in 
    Congress from the State of Illinois, and chairman, 
    Subcommittee on Asia and the Pacific.........................     8

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD

The Honorable Donald A. Manzullo: Prepared statement.............    15
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................    18

                                APPENDIX

Hearing notice...................................................    22
Hearing minutes..................................................    23
The Honorable Eni F.H. Faleomavaega: New York Times article 
  submitted for the record.......................................    24


CALLING FOR THE REPATRIATION OF POW/MIAs AND ABDUCTEES FROM THE KOREAN 
                                  WAR

                              ----------                              


                      WEDNESDAY, NOVEMBER 30, 2011

                  House of Representatives,
              Subcommittee on Asia and the Pacific,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:30 a.m., in 
room 2226 Rayburn House Office Building, Hon. Donald A. 
Manzullo (chairman of the subcommittee) presiding.
    Mr. Manzullo. The subcommittee will come to order. After 
the conclusion of this brief business meeting, we will proceed 
immediately to today's hearing on the Compact of Free 
Association with the Republic of Palau. Pursuant to notice, for 
purposes of a markup, I call for House Resolution 376: Calling 
for the Repatriation of POW/MIAs and the Abductees from the 
Korean War.
    [H. Res. 376 follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Manzullo. Without objection, the measure is considered 
read, and open for amendment at any point. Before recognizing 
myself and other members for statements, I have a bipartisan 
amendment in the nature of a substitute that makes a few 
changes to the underlying resolution. These edits and updates, 
which were sent to your offices yesterday, were carefully 
negotiated with the author, Mr. Rangel, and his staff.
    The clerk will report the amendment.
    Mr. Gutfrucht. Amendment in the nature of a substitute to 
H. Res. 376, offered by Mr. Manzullo of Illinois. Strike the 
preamble and insert----
    Mr. Manzullo. Without objection, the amendment in the 
nature of a substitute is considered read.
    [The amendment offered by Mr. Manzullo follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Manzullo. All members are given leave to insert remarks 
on this measure into the record, should they decide to do so. I 
now recognize myself to speak on this measure.
    On June 25, 1950, the North Koreans initiated the Korean 
War by unleashing a torrent of death and destruction across the 
border against America's ally, South Korea, in a brazen effort 
to reunite the divided peninsula under the oppressive red flag 
of communism. The legacy of the Korean War reverberates 61 
years later, with a nuclear-armed North Korea still menacing 
peaceful nations and the hundreds of thousands of people it 
still holds as prisoners of war and abductees.
    Approximately 1.8 million members of the U.S. Armed Forces 
fought in Korea, alongside South Korea and United Nations 
forces. The sacrifices of the more than 128,600 Americans 
killed or wounded in that conflict will never be forgotten. Our 
friends in South Korea suffered equally with us in their 
darkest hour, with the added misery that the war was fought in 
their homeland.
    For so many families in the U.S and Korea, the war has 
never ended. The Defense Department reports that more than 
8,000 American servicemen as POW/MIAs in the conflict, with 
5,500 soldiers, sailors, airmen and Marines in North Korea. 
Families all throughout this great country still do not have 
the closure they deserve after so many years, and it is time 
that North Korea told the truth about their whereabouts.
    In South Korea, it is estimated that as many as 73,000 
servicemembers were never reported by North Korea as POWs. Add 
to this the abduction of approximately 100,000 South Korean 
civilians, and we can finally have a clear picture of North 
Korea's brutality.
    House Resolution 376 recognizes the plight of American and 
South Korean prisoners of war and civilian abductees still 
alive in North Korea. It calls on both the U.S. and South 
Korean Governments to thoroughly investigate any sightings of 
POWs and civilian abductees. The resolution also calls on North 
Korea to admit the kidnapping of over 100,000 people during the 
war, and to repatriate remaining POWs and civilian abductees as 
required by the Geneva Convention.
    The amendment in the nature of a substitute makes several 
changes to the base text of H. Res. 376. This amendment was 
drafted in coordination with the bill's sponsor, Representative 
Rangel of New York, and makes a number of changes, too many to 
explain in the time I have for these remarks.
    Key items include: Recognition of the thousands of South 
Korean men forcibly conscripted into the North Korean Army; the 
abduction of South Korean civilians by North Korea in its 
attempts to communize the South; the hardship endured by South 
Korean families of the abducted civilians; North Korea's 
refusal to acknowledge, account for, or repatriate abductees; 
and strong U.S. efforts to negotiate release of these civilians 
during the Korean War Armistice Commission Conference of 1953.
    There is no excuse for North Korea to refuse family 
reunions for the more than 100,000 South Koreans forcibly 
abducted 61 years ago. We owe it to our South Korean friends 
and the nearly 1.5 million Americans of Korean descent to never 
give up the fight for their release.
    Personally, I will never forget the day when former South 
Korean Ambassador Lee Tae-Sik made a special visit to the 16th 
Congressional District in Illinois to personally thank American 
veterans of the Korean War for defending his country and 
protecting his people. As I stood watching the Ambassador 
deliver his remarks, and the emotional response of our 
veterans, I could not be but overcome with great respect and 
gratitude for the friendship our two nations share.
    [The prepared statement of Mr. Manzullo follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. I now recognize the ranking member, Mr. 
Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, thank you for calling this 
hearing. I appreciate very much your leadership and your 
efforts in bringing this important resolution before the 
subcommittee for markup. Mr. Chairman, House Resolution 376 was 
authored, introduced, and sponsored by a true American hero, my 
good friend, the Honorable Charles Rangel from New York. I am 
very proud to be an original co-sponsor of this resolution.
    House Resolution 376 calls for the repatriation of POWs, 
MIAs, and abductees from the Korean War. I know this 
legislation is near and dear to Congressman Rangel's heart, as 
was the resolution he introduced last year to recognize the 
60th anniversary of the Korean War. Last year's resolution, 
which was passed by Congress and signed by the President, 
should have borne Charlie Rangel's name in it. To me, it always 
will be.
    Mr. Chairman, some 30,000 soldiers lost their lives in the 
Korean War from 1950 to 1953. In a Black unit led mostly by 
White officers, Acting Sergeant Charles Rangel was awarded the 
Purple Heart and Bronze Star for his heroic service in the 
Korean War, having led his comrades from behind enemy lines in 
circumstances few of us have ever known.
    I commend the Honorable Charles Rangel for his valor, for 
his sacrifice and courage. I also want to thank the Korean-
American community here in the metropolitan DC area, Los 
Angeles and New York, and especially Mr. Dongsuk Kim, the 
founder and former president of the Korean-American Voters' 
Council, for their grassroots efforts in support of this 
resolution.
    The resolution is very important to the Korean-American 
community because some have relatives that are POWs currently 
in North Korea, and some of their relatives are still alive and 
want to be repatriated. At the very least, these Korean-
Americans just want to find out the status of their relatives 
that were taken as POWs during the Korean War.
    Mr. Chairman, I would ask unanimous consent that this 
article in the New York Times dated November 28 of this year, 
entitled ``Calling Out Names of 83,000 Lost South Koreans,'' be 
made part of the record.
    Again, I want to say that on behalf of our Korean-American 
community, for all those who served and sacrificed so much 
during the Korean War, I urge my colleagues to support this 
resolution.
    I yield back.
    [The prepared statement of Mr. Faleomavaega follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. Without objection, the article will be 
admitted. Are there any other members who would like to strike 
the last word and speak? Mr. Royce.
    Mr. Royce. I would like to. I thank you, Mr. Chairman, for 
scheduling this markup. I really want to thank our colleague 
Charlie Rangel, who sort of has the quintessentially American 
sense of humor, and documented his role in that conflict in his 
book, ``And I Haven't Had a Bad Day Since.''
    I think, for those who fought in this war, for that 
generation of Americans and South Koreans who bled in that war, 
they take some umbrage with the idea that some refer to this as 
a ``forgotten war.'' They haven't forgotten that war. And I 
think, by moving this legislation forward, we are signalling 
that this committee hasn't forgotten that war.
    I have chaired the Interparliamentary Exchange with South 
Korea for some years, and I know the impact that that conflict 
had on South Korea. I think, as much as anything, this 
resolution demonstrates the shared commitment and the sacrifice 
that serves as the foundation of the U.S.-Korea alliance.
    A lot has changed in the last six decades since the war. 
Certainly with the United States' support, South Korea has 
transformed into a modern leading economy. Yet north of the 
38th parallel in North Korea--and I have been in North Korea--
they still live literally in darkness.
    It has been more than 60 years now, and our Department of 
Defense still lists more than 8,000 American servicemen as POWs 
or missing in action from the Korean War. The number of South 
Koreans is estimated to be many multiples of that. And of 
course, as mentioned, you had 100,000 South Koreans forcibly 
conscripted into the North Korean army.
    For our veterans, and for their families, it is well past 
time for a full accounting, which this resolution calls for. So 
I urge its adoption, and I yield back the balance of my time.
    Mr. Manzullo. Do any other members seek recognition to 
speak on it? Mr. Duncan.
    Mr. Duncan. Thank you. I just want to echo Chairman Royce's 
comments there, that my wife just participated in an honor 
flight, coming up to Washington. And I was sitting here, 
thinking about it being the month when we celebrate and 
recognize Veterans' Day, and honor the memory of those who have 
fought and those who are currently serving. And I think about 
the number of Korean War veterans that I run across, just in 
daily contact around the District.
    And I just want to pause and say thank you to those men and 
women who served so valiantly in a war that, a lot of times, is 
forgotten when we focus on the current War on Terror, and are 
remembering those of the greatest generation, World War II 
veterans, that are passing away at a very rapid rate.
    And I just want to pause and say, we do remember the Korean 
War veterans. This is a very timely resolution. And I just want 
to echo Mr. Royce's comments, as well, and simply say thanks.
    I yield back.
    Mr. Manzullo. Do any other members seek recognition?
    [No response.]
    Mr. Manzullo. Hearing none, and there being no further 
amendments, the question is on agreeing to the bipartisan 
amendment in the nature of a substitute.
    All those in favor, say aye.
    [Chorus of ayes.]
    Mr. Manzullo. Those opposed, say no.
    [No response.]
    Mr. Manzullo. In the opinion of the Chair, the ayes have it 
and the amendment of the nature of a substitute is agreed to. 
The question now occurs on adopting the resolution as amended.
    All those in favor, say aye.
    [Chorus of ayes.]
    Mr. Manzullo. Those opposed, say no.
    [No response.]
    Mr. Manzullo. In the opinion of the Chair, the ayes have 
it, and the amended resolution is agreed to. Without objection, 
H. Res. 376 as amended is reported favorably to the full 
Committee on Foreign Affairs, and staff are directed to make 
any technical and conforming changes.
    That concludes our business. Without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   <F-dash>\<diamond><natural>t<careof><star><script-l><box><ellipse>
   <ellipse><F-dash>a<script-l><box><pound><acctof>ava<box><bullet>a\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
